  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General


  The Commonwealth of Pennsylvania’s 

     Management of State Homeland 

    Security Grants Awarded During 

     Fiscal Years 2002 through 2004 





OIG-08-03                  October 2007
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                      October 16, 2007

                                             Preface

The Department of Homeland Security Office of Inspector General was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
published as part of our oversight responsibilities to promote economy, effectiveness, and
efficiency within the department.

The attached report presents the results of the audit of the Commonwealth of Pennsylvania’s
management of State Homeland Security Grants awarded during Fiscal Years 2002 through
2004. We contracted with the independent public accounting firm of Williams, Adley &
Company, LLP to perform the audit. The contract required that Williams, Adley &
Company, LLP perform its audit according to generally accepted government auditing
standards and guidance from the Office of Management and Budget and the Government
Accountability Office. Williams, Adley & Company, LLP’s report identified seven areas
where the Commonwealth of Pennsylvania’s management of the grant funds could be
improved. Williams, Adley & Company, LLP is responsible for the attached auditor’s report
dated August 28, 2007, and the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

                          Williams Adley & Company, LLP
Certified Public Accountants/Financial Management Consultants



August 28, 2007

Mr. James L. Taylor
Deputy Inspector General
Office of Inspector General
Department of Homeland Security
245 Murray Drive, S.W. Bldg. 410
Washington, D.C. 20528

Dear Mr. Taylor:

Williams, Adley & Company, LLP performed an audit of the Commonwealth of Pennsylvania’s
management of the Department of Homeland Security’s State Homeland Security Grants for Fiscal
Years 2002, 2003, and 2004. The audit was performed in accordance with our Task Order TPD
ARC-06-K-00209 dated May 17, 2006.

This report presents the results of the audit and includes recommendations to help improve the
Commonwealth’s management of the audited State Homeland Security Grant Programs. These
programs are commonly referred to as first responder grant programs.

Our audit was conducted in accordance with applicable Government Auditing Standards, 2003
revision. The audit was a performance audit as defined by Chapter 2 of the Standards and it
included a review and report of program activities with a compliance element. Although the audit
report comments on costs claimed by the Commonwealth, we did not perform a financial audit, the
purpose of which would be to render an opinion on the Commonwealth of Pennsylvania’s financial
statements or the funds claimed in the Financial Status Reports submitted to the Department of
Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any questions, or if we
can be of any further assistance, please call me at (202) 371-1397.

Sincerely,

Williams, Adley & Company, LLP




Charbet M. Duckett, CPA
Partner
_________________________________________________________________________________________________

   Executive Summary ..................................................................................................................... 1 


   Background .................................................................................................................................. 3 


   Results of Audit ............................................................................................................................ 7 


     Improvements Are Needed in the Grant Allocation Process .................................................... 12 

     A System to Monitor and Measure Improved Preparedness and Subrecipient Performance 

         Was Not Implemented ........................................................................................................ 14

     Supporting Documentation for Expenditures Charged to Federal Funds Was Not 

         Accessible ........................................................................................................................... 17 

     Unauthorized Expenditures Were Charged to Federal Funds .................................................. 20 

     Categorical Assistance Progress Reports Were Not Submitted or Not Submitted Timely ...... 22 

     Final Financial Status Report for FY 2002 Was Not Submitted Timely .................................. 25 

     Information Reported on the Financial Status Reports Did Not Agree with the 

         Commonwealth’s Accounting System ................................................................................ 27 


   Appendices

     Appendix A:           Objectives, Scope, and Methodology ............................................................... 30 

     Appendix B:           The Pennsylvania Emergency Management Agency Organization Chart ........ 33 

     Appendix C:           The Pennsylvania Emergency Management Agency Response ....................... 34 

     Appendix D:           Report Distribution ........................................................................................... 39 


   Abbreviations

     DHS           Department of Homeland Security 

     FY            Fiscal Year       

     OIG           Office of Inspector General 





                    The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants 

                                   Awarded During Fiscal Years 2002 through 2004 

_________________________________________________________________________________________________


Executive Summary

                     Williams, Adley & Company, LLP completed an audit of the Department of
                     Homeland Security’s (DHS) State Homeland Security Grants awarded to the
                     Commonwealth of Pennsylvania. The objectives of the audit were to
                     determine whether the Commonwealth (1) effectively and efficiently
                     implemented the first responder grant programs, (2) achieved the goals of the
                     programs, and (3) spent funds in accordance with grant requirements. The
                     goal of the audit was to identify problems and solutions that would help the
                     Commonwealth of Pennsylvania prepare for and respond to terrorist attacks.
                     (See Appendix A for additional details on the objectives, scope, and
                     methodology of this audit.)

                     The audit included a review of approximately $150.6 million awarded by the
                     DHS to the Commonwealth of Pennsylvania from the Fiscal Year (FY) 2002
                     State Domestic Preparedness Program, the FY 2003 State Homeland Security
                     Grant Program Parts I and II, and the FY 2004 State Homeland Security Grant
                     Program. The Pennsylvania Emergency Management Agency managed the
                     programs, commonly referred to as first responder grant programs.

                     Although the scope of this audit included a review of costs claimed, a
                     financial audit of those costs was not performed. Accordingly, we do not
                     express an opinion on the Commonwealth of Pennsylvania’s financial
                     statements or the funds claimed in the Financial Status Reports submitted to
                     DHS.

                     Overall, we determined that the Commonwealth (1) generally implemented
                     the first responder grant programs in an effective and efficient manner; (2) did
                     not measure whether it achieved the goals of the programs; and (3) generally
                     spent the funds according to grant requirements. However, the following
                     exceptions and areas of non-compliance detailed in the body of this report
                     warrant attention. The Pennsylvania Emergency Management Agency was
                     not in compliance with the grant requirements when it:

                          • 	 had a burdensome, time consuming, and inefficient administrative
                              subgrant award process;
                          • 	 did not implement a system to monitor and measure improved
                              preparedness and subrecipient performance;
                          • 	 did not provide access to supporting documentation for expenditures
                              charged to federal funds;
                          • 	 acquired various unauthorized warranties, maintenance agreements,
                              spare parts, and other expenses totaling $721,317;
                          • 	 submitted 16 of 25 Categorical Assistance Progress Reports late and
                              1 was not submitted;

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 1
_________________________________________________________________________________________________

                          • 	 did not submit the final FY 2002 Financial Status Report timely; and
                          • 	 reported unliquidated obligations on the Financial Status Reports that
                              were not in agreement with the accounting system for six Financial
                              Status Reports.

                     We have developed 13 recommendations for the Assistant Administrator,
                     Grant Programs Directorate within the Federal Emergency Management
                     Agency, to improve the overall effectiveness of the Pennsylvania Emergency
                     Management Agency’s operations. Significant recommendations include
                     ensuring that the Pennsylvania Emergency Management Agency:

                          • 	 evaluate its organizational structure and focus to determine if the
                              current structure is sufficient to meet its domestic preparedness
                              responsibilities and requirements;
                          • 	 develop and implement a system to monitor and measure improved
                              preparedness of the Commonwealth;
                          • 	 return to DHS unauthorized amounts totaling $721,317;
                          • 	 develop policies and procedures that ensure the proper and timely
                              submission of progress and financial reports; and
                          • 	 implement procedures to identify and document variances between
                              accounting system financial data and the Financial Status Reports.

                     The details of all findings, as well as the 13 recommendations, are described
                     in the Findings and Recommendations section of the report.

                     The Grant Programs Directorate officials within the Federal Emergency
                     Management Agency and the Commonwealth of Pennsylvania officials
                     provided verbal concurrences with the recommendations contained in this
                     report at their exit conference on July 31, 2007 and July 17, 2007,
                     respectively. Additionally, the Commonwealth provided a written response to
                     the recommendations on August 1, 2007. See the full text of their response in
                     Appendix C. The Grant Programs Directorate will provide corrective actions
                     and a plan to implement those corrective actions within 90 days of the date of
                     this report.

                     While this report addresses the Commonwealth of Pennsylvania’s
                     management of the grant programs listed above, we also identified potential
                     opportunities for improved oversight by the Grant Programs Directorate
                     within the Federal Emergency Management Agency. These opportunities will
                     be considered by the Office of Inspector General for reporting under separate
                     cover when the results of other State audits are available.




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 2
_________________________________________________________________________________________________


Background

                     The Homeland Security Grant Program is a federal assistance grant program
                     administered by the U.S. Department of Homeland Security, Grant Programs
                     Directorate within the Federal Emergency Management Agency. This grant
                     program originated in the Office for Domestic Preparedness, which
                     transferred from the Department of Justice to DHS in March 2003. The
                     Office for Domestic Preparedness was subsequently consolidated into the
                     Office of State and Local Government Coordination and Preparedness. When
                     the Secretary reorganized that office, the grant program was moved to Office
                     of Grants and Training, which later became part of the Federal Emergency
                     Management Agency. The DHS is responsible for enhancing the capabilities
                     of state and local jurisdictions to respond to, and mitigate the consequences of,
                     incidents of domestic terrorism. The DHS provides grant funds to aid public
                     safety personnel (e.g., first responders) acquiring specialized training,
                     exercises, and equipment necessary to safely respond to and manage terrorist
                     incidents involving weapons of mass destruction. First responders include
                     firefighters, police, paramedics, and others. The grants are collectively
                     referred to as “first responder” grants.

                     The Homeland Security Grant Program encompasses several different federal
                     grant programs, including the State Domestic Preparedness Program and the
                     State Homeland Security Grant Program. State governors appoint a State
                     Administrative Agency responsible for managing and administering homeland
                     security grant funds according to established federal guidelines. The State
                     Administrative Agency also serves as the pass-through entity for funds
                     subgranted to local, regional, or other state government agencies. The
                     Governor of the Commonwealth of Pennsylvania designated the Pennsylvania
                     Emergency Management Agency to serve as the State Administrative Agency.

                     The Commonwealth of Pennsylvania received approximately $150.6 million
                     in funds from the Homeland Security Grants Program during FYs 2002
                     through 2004. During FYs 2002 to 2004, the Pennsylvania Emergency
                     Management Agency awarded subgrants to 9 Regional Counter-Terrorism
                     Task Forces and 11 Commonwealth agencies.

                     First Responder Grant Programs

                     The FY 2002 State Domestic Preparedness Program grants provided
                     financial assistance to each of the nation’s states, including U.S. Territories,
                     the District of Columbia and the Commonwealth of Puerto Rico. This
                     financial assistance was provided for the purchase of specialized equipment to
                     enhance the capability of State and local agencies to respond to incidents of
                     terrorism involving the use of weapons of mass destruction; for the protection
                     of critical infrastructure; for costs related to the design, development, conduct,
              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 3
_________________________________________________________________________________________________

                     and evaluation of weapons of mass destruction exercises; and for
                     administrative costs associated with the implementation of the statewide
                     domestic preparedness strategies.

                     FY 2003 State Homeland Security Grant Program Part I provided
                     financial assistance funding for (1) the purchase of specialized equipment to
                     enhance the capability of state and local agencies to prevent and respond to
                     incidents of terrorism involving the use of chemical, biological, radiological,
                     nuclear, or explosive weapons; (2) the protection of critical infrastructure and
                     prevention of terrorist incidents; (3) costs related to the design, development,
                     conduct, and evaluation of chemical, biological, radiological, nuclear, or
                     explosive exercises; (4) costs related to the design, development, and conduct
                     of state chemical, biological, radiological, nuclear, or explosive training
                     programs; and (5) costs associated with updating and implementing each
                     state’s homeland security strategy. States allocated these grant funds
                     according to their approved homeland security strategies.

                     FY 2003 State Homeland Security Grant Program Part II provided
                     supplemental funding available through FY 2003 to enhance first responder
                     preparedness. In addition, the FY 2003 Part II funds were also available to
                     mitigate the costs of enhanced security at critical infrastructure facilities
                     during the period of hostilities with Iraq and future periods of heightened
                     threat.

                     The FY 2004 State Homeland Security Grant Program provided funding
                     for specialized equipment, exercises, training, and planning costs associated
                     with updating and implementing each state's homeland security strategy.

                     Grant Funding

                     The Commonwealth of Pennsylvania received approximately $150.6 million
                     in funds from the Homeland Security Grant Program during FYs 2002
                     through 2004. See Table 1 for a breakdown by year and funded activity. The
                     awards were allocated to various State agencies and the nine Regional
                     Counter-Terrorism Task Forces (the Regional Task Forces). The available
                     funding in the FY 2002 Grant Program was used to purchase specialized
                     equipment. The Commonwealth used the FY 2003 Grant Program and the
                     FY 2004 Grant Program funds to purchase specialized emergency response
                     equipment, training, and exercise activities, and to perform planning and
                     administration for the Regional Task Forces.




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 4
_________________________________________________________________________________________________

                                                                 Table 1
                                                 Pennsylvania Homeland Security Grant Awards
                                                            FYs 2002 through 2004
                                                                Grant Program
                                                                     (‘000s)
                                                            2003 State          2003 State
                                          2002 State        Homeland           Homeland          2004 State
                                           Domestic       Security Grant     Security Grant      Homeland
                                         Preparedness        Program             Program       Security Grant
                       Funded Activity     Program            Part I              Part II         Program       Totals

                       Equipment                $9,800           $13,721            $34,034           $52,592   $110,147

                       Exercise                   466              3,258              7,503              N/A      11,227

                       Training                   N/A                977                136              690       1,803

                       Administration             246                614                957             1,648      3,465
                       Critical
                       Infrastructure             N/A                N/A              6,559              N/A       6,559
                       Law Enforcement
                       Terrorism
                       Prevention                 N/A                N/A               N/A             16,300     16,300

                       Citizen Corps              N/A                N/A               N/A              1,141      1,141

                       TOTALS                  $10,512           $18,570            $49,189           $72,371   $150,642




                     State Administrative Agency

                     State governors appoint a State Administrative Agency to administer the
                     Homeland Security Grant Program. The State Administrative Agency is
                     responsible for managing these grant programs according to established
                     federal guidelines. The State Administrative Agency is also the pass-through
                     agency for funds subgranted to local, regional, and other state government
                     agencies.

                     The Governor of the Commonwealth of Pennsylvania designated the
                     Pennsylvania Emergency Management Agency to serve as the State
                     Administrative Agency and it has served as the State Administrative Agency
                     since FY 1999. The Pennsylvania Emergency Management Agency is
                     responsible for the coordination of all available Commonwealth resources to
                     support county and local governments in the areas of civil defense, disaster
                     mitigation, preparedness, planning, and response to and recovery from
                     emergencies of any kind, natural or man-made. The Pennsylvania Emergency
                     Management Agency supported a regional approach to its counterterrorism
                     efforts; sustained, financially and logistically, the Commonwealth’s nine
                     Regional Task Forces; fostered legislative support to adopt new state laws that
                     enhance response capabilities; developed unique strategies to procure
                     equipment more efficiently; and distributed funds to Commonwealth-level
                     first responders.



              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 5
_________________________________________________________________________________________________

                     The Pennsylvania Emergency Management Agency coordinated efforts with
                     the Governor’s Office to pass into law the Counterterrorism Planning,
                     Preparedness and Response Act, 2002 Pa. Laws 227. The Act defines
                     responsibilities of the Pennsylvania Emergency Management Agency,
                     Regional Task Forces, and Urban Search and Rescue Task Forces, and
                     charges the Pennsylvania Emergency Management Agency, in coordination
                     with the Regional Task Forces, to define the necessary components and
                     composition of the specialized Regional Counterterrorism Response Team.

                     The Pennsylvania Emergency Management Agency employs approximately
                     160 persons, none of whom work full-time on homeland security, and has an
                     annual budget of more than $100 million. (See Appendix B for an
                     organization chart of the Pennsylvania Emergency Management Agency, as
                     provided by the Commonwealth.) The Comptroller’s Office, as the finance
                     and treasury arm of the Commonwealth, assists the Pennsylvania Emergency
                     Management Agency by recording financial information in the general ledger,
                     making payments for grant expenses, and preparing and submitting financial
                     status reports. The Comptroller’s Office does not report to the Pennsylvania
                     Emergency Management Agency, nor do any of its employees work full-time
                     on homeland security grants.




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 6
_________________________________________________________________________________________________


Results of Audit

                     The DHS awarded approximately $150.6 million to the Commonwealth of
                     Pennsylvania from the FY 2002 State Domestic Preparedness Program, the
                     FY 2003 State Homeland Security Grant Program Parts I and II, and the
                     FY 2004 State Homeland Security Grant Program. The Pennsylvania
                     Emergency Management Agency managed the programs, commonly referred
                     to as first responder grant programs.

                     The objectives of the audit were to determine whether the Commonwealth of
                     Pennsylvania (1) effectively and efficiently implemented the first responder
                     grant programs, (2) achieved the goals of the programs, and (3) spent funds in
                     accordance with grant requirements.

                     In determining whether the Commonwealth of Pennsylvania had effectively
                     and efficiently implemented the first responder grant programs, we answered
                     the following researchable questions:

                     • 	 Did the Commonwealth use reasonable methodologies for assessing threat,
                         vulnerability, capability, and prioritized needs?

                          Yes, in the FY 2003 strategy development, the Commonwealth of
                          Pennsylvania used acceptable methodologies for assessing threat,
                          vulnerability, capability, and prioritized needs. The Pennsylvania
                          Emergency Management Agency hired a national consulting firm to assist
                          the Bureau of Plans within the Pennsylvania Emergency Management
                          Agency, the Regional Task Forces, and the first responders to develop the
                          Commonwealth’s strategy. The team used jurisdictional assessments,
                          intelligence reports, and other information to determine the key
                          facilities/infrastructure, current capabilities, skills, experiences, and
                          vulnerabilities. In its strategy manual, the Commonwealth used
                          11 disciplines to assess threats, vulnerabilities, capabilities, and prioritized
                          needs. Those disciplines were (1) Emergency Management,
                          (2) Emergency Medical Services, (3) Fire Services, (4) Governmental
                          Administrative, (5) Hazardous Material, (6) Health Care, (7) Law
                          Enforcement, (8) Public Health, (9) Public Safety Communications,
                          (10) Public Works, and (11) Agriculture. These disciplines were addressed
                          in the strategy. According to the Emergency Management Specialist,
                          Bureau of Plans, the contractor spent 3 to 4 days with each Regional Task
                          Force, including first responders, in order to compile the necessary
                          information to enable the Pennsylvania Emergency Management Agency
                          to put together its strategic plan. Additionally, the Regional Task Force
                          officials stated that they participated in the compilation of the needs
                          assessment and domestic preparedness strategies for the State/local

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 7
_________________________________________________________________________________________________

                          communities for FYs 2002 through 2004. We determined that the greater
                          allocation of funding in the grant years was received by Regional Task
                          Forces that were the most heavily populated, had the most critical and
                          vulnerable infrastructure, and needed the greatest capacity to address
                          potential threats. Also, we interviewed the DHS Preparedness Officer who
                          stated that “the State Homeland Security Strategy was developed in 2003
                          by the Commonwealth using a system and methodology developed by
                          DHS to assess current levels of preparedness capabilities and identify gaps
                          that would be addressed by the FY 2003 Strategy.”

                     • 	 Did the Commonwealth appropriately allocate funding based on threats,
                         vulnerabilities, capabilities, and priorities?

                          The Commonwealth considered five factors of threat and vulnerability to
                          calculate the allocation of grant funds. Those factors were (1) Threat of
                          Potential Weapon of Mass Destruction terrorist attacks in each region,
                          (2) Vulnerability Assessment, (3) Agricultural Assessment, (4) Critical
                          Infrastructure, and (5) Changes in the Risk Environment. The
                          Commonwealth allocated federal funding to the Regional Task Forces,
                          primarily based on population size. To ensure the accuracy of the
                          population information used, we compared the population size with the
                          census posted on the Bureau of Census website. We determined that the
                          population used by the Commonwealth of Pennsylvania agreed with the
                          Bureau of Census. Also, the Commonwealth officials identified and
                          evaluated individual targets using the DHS methodology and planning
                          factors that estimated population impacts of various chemical, biological,
                          radioactive, nuclear, and explosive scenarios. Their analysis resulted in the
                          top ten targets that became prioritized needs. With those areas identified,
                          the Commonwealth planned for acquisition of equipment among the
                          Regional Task Forces based on their capabilities to manage potential
                          weapons of mass destruction, with a major emphasis upon population,
                          vulnerable targets, and priorities.

                     • 	 Are the Commonwealth’s procurement methodologies (centralized, local,
                         or combination) reasonable and in conformance with its homeland security
                         strategies?

                          Yes, the Commonwealth’s combination procurement system is reasonable
                          and in conformance with its homeland security strategies. The
                          Pennsylvania Emergency Management Agency determined early on that to
                          be successful in procuring the goods and services required by the State
                          Homeland Security Grant Program, it would need to control purchasing
                          from a central location. Therefore, equipment purchases are centralized
                          using the Department of General Services, but other goods and services,
                          such as training, exercises, and payroll, are locally purchased by the

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 8
_________________________________________________________________________________________________

                          Regional Task Forces or local jurisdictions. The centralized method of
                          equipment procurement has proven to be an efficient, timely, and cost-
                          effective approach. This approach relieved the financial and administrative
                          burden from the local jurisdictions for expensive equipment purchases and
                          allowed the procurement specialists to make bulk purchases using the State
                          and federal purchasing/contracting methods, thereby resulting in potential
                          cost savings to the Commonwealth.

                     • 	 Was the time it took the Commonwealth to get funds/equipment to first
                         responders (from the time the funds/equipment were available to the State
                         until they were disbursed/provided to the jurisdiction) reasonable, and if
                         not, what caused the delays?

                          No, the time taken by the Commonwealth was not reasonable. The
                          Regional Task Forces did not receive funds directly. Generally, they are
                          given obligation authority and are reimbursed for actual expenditures.
                          The current administrative process for providing obligation authority is
                          burdensome and time consuming and, therefore, inefficient, because of
                          (1) the number and multilevel of personnel required for subgrant
                          agreement approval, and (2) insufficient planning and preparation on the
                          part of the Pennsylvania Emergency Management Agency. For FYs 2002,
                          2003 Part I, 2003 Part II, and 2004, the number of days from the grant
                          award to the day the subgrantees were allowed to incur the obligations,
                          were 247, 249, 273, and 251, respectively. These delays resulted in
                          several requests for grant extensions. The program guidelines established
                          the following standards for funds availability: 45 days for FY 2003 Parts I
                          and II, and 60 days for FY 2004. Although the program guidelines did not
                          establish a standard for FY 2002, we believe the 247 days timeframe is
                          unreasonable. See further details of the finding and recommendation
                          starting on page 12.

                     In determining whether the Commonwealth of Pennsylvania achieved the
                     goals of the grant program, we answered the following researchable question:

                     • 	 Has the Commonwealth developed and implemented plans to measure
                         improvements in preparedness as a result of the grants and have such
                         measurement efforts been effective?

                          No, the Commonwealth of Pennsylvania did not have written policies and
                          procedures for performing monitoring activities of the Homeland Security
                          Grant Program for FYs 2002 through 2004, nor did the Commonwealth
                          measure improvements in its preparedness as a result of the grants. See
                          further details of the finding and recommendations starting on page 14.



              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                     Page 9
_________________________________________________________________________________________________

                     In determining whether the Commonwealth of Pennsylvania spent funds in
                     accordance with the grant requirements, we answered the following
                     researchable questions:

                     • 	 Does the State Administrative Agency have procedures in place to monitor
                         the funds and activities at the local level to ensure that grant funds are
                         spent according to grant requirements and the Commonwealth-established
                         priorities? Have these monitoring procedures been implemented and are
                         they effective?

                          No, the Pennsylvania Emergency Management Agency did not have
                          written policies and procedures for performing monitoring activities.
                          Although the Pennsylvania Emergency Management Agency reviewed
                          reimbursement requests from the Regional Task Forces and entered into
                          signed grant agreements with the Regional Task Forces, it did not require
                          the Regional Task Forces to provide the semiannual reports required by
                          the grant agreements. Further, the Pennsylvania Emergency Management
                          Agency did not conduct site visits to ensure that the equipment items
                          acquired were adequately controlled, used for their intended purposes, and
                          adequately advanced interoperability for local and possibly the
                          Commonwealth’s response efforts. See further details of the finding and
                          recommendations starting on page 14.

                     • 	 Did the Commonwealth comply with cash management requirements and
                         DHS’ financial and status reporting requirements for the grant programs
                         and did local jurisdictions spend grant funds advanced by the
                         Commonwealth in a timely manner and, if not, what caused the delays?

                          No, the Pennsylvania Emergency Management Agency, which is
                          responsible for all programmatic, financial, and administrative aspects of
                          the grant program, did not fully comply with the reporting requirements.
                          The Pennsylvania Emergency Management Agency officials did not
                          submit 1 and also were not timely in the submission of 16 of 25
                          semiannual Categorical Assistance Progress Reports. See further details
                          of the finding and recommendations starting on page 22.

                          Generally, the Financial Status Reports were prepared and submitted
                          timely by the Commonwealth officials. Therefore, they experienced no
                          time lags in the receipt of their reimbursements. However, in cooperation
                          with the Pennsylvania Emergency Management Agency, the
                          Comptroller’s Office did not prepare the final Financial Status Report for
                          the FY 2002 grant within the required 120-day period. Also, they did not
                          properly report unliquidated obligations on 6 of 8 quarterly Financial
                          Status Reports. The unliquidated obligations did not agree with the


              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 10
_________________________________________________________________________________________________

                          accounting system. See further details of the findings and 

                          recommendations starting on page 22 and page 25, respectively. 


                     • 	 Were grant funds used according to grant requirements and State-
                         established priorities?

                          Generally, the Commonwealth of Pennsylvania used the grant funds
                          according to the grant requirements and the established priorities, except
                          for $721,317 in unauthorized expenditures. Based on site visits to five
                          Regional Task Force subgrant recipients and four first responder agencies,
                          interviews with Pennsylvania Emergency Management Agency and the
                          Comptroller’s Office personnel, and a review of supporting documentation
                          at the subgrant recipient level, we determined that $40 million was spent
                          according to the provisions of the program guidelines. The
                          Commonwealth spent the grant funds for various types of training,
                          information technology resources, personnel, and equipment for various
                          organizations including, but not limited to, bomb squads, emergency
                          management services, and police. We physically inspected various
                          purchased equipment. However, our audit identified questioned costs for
                          various unallowable expenditures charged to the grants for the FYs 2002,
                          2003 Part I, and 2004 totaling $721,317 out of the total $40.7 million
                          tested. The federal government could require the State to repay any
                          monies not expended according to the grant requirements. Additionally,
                          noncompliance could place future homeland security grant funds at risk.
                          See further details of the findings and recommendations starting on pages
                          17 and 22, respectively.

                     • 	 Are there best practices that can be identified and shared with other states
                         and DHS?

                          We identified the following effective tools and practices that should be
                          reviewed by the DHS for possible use by and sharing with other states.

                          First, the division of the Commonwealth of Pennsylvania into nine
                          Regional Task Forces has strengthened each region because it has unified
                          subject matter experts, first responders, and support agencies who have
                          examined their abilities to protect and plan the response to threats at
                          critical infrastructures, transportation venues, community events, medical
                          facilities, and chemical plants. Each Regional Task Force is comprised of
                          five to eight member counties. All Regional Task Forces have a core
                          county that maintains responsibility for conducting monthly meetings and
                          managing the overarching homeland security initiatives within its
                          jurisdiction. As a result of a monitoring visit performed by the DHS
                          Preparedness Officer on July 13, 2005, for the period December 1, 2004,
                          to June 30, 2005, the Preparedness Officer stated that the Pennsylvania

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 11
_________________________________________________________________________________________________

                          Emergency Management Agency continues to be commended for
                          developing and engaging in a model regional program. The Regional
                          Counterterrorism Task Force structure works well throughout the
                          Commonwealth and could serve as a model for the nation in regionalism.

                          Second, a centralized purchasing team, mandated by the Governor of
                          Pennsylvania, was established to do all equipment purchasing for this
                          grant. The Pennsylvania Emergency Management Agency established an
                          Equipment Acquisition Team within its headquarters, staffed by
                          acquisition personnel provided by the Office of the State Purchasing
                          Agent and headed by an experienced senior Contracting Officer. The
                          Equipment Acquisition Team consolidated requirements and purchased
                          equipment for all first responders throughout the Commonwealth. The
                          Commonwealth therefore was able to negotiate the best available contract
                          prices; provide standardization, interoperability, and volume purchasing
                          discounts; and relieve the financial and administrative burden from the
                          individual local jurisdictions.

                     Findings and Recommendations

                     Overall, we determined that the Commonwealth (1) generally implemented the
                     first responder grant programs in an effective and efficient manner, (2) did not
                     measure whether it achieved the goals of the programs; and (3) generally spent
                     the funds according to grant requirements. We also determined that the
                     following exceptions warrant attention.

                     Improvements Are Needed in the Grant Allocation Process

                     The administrative process was burdensome and time consuming and
                     therefore, inefficient, because of the number and multiple levels of personnel
                     required for subgrant agreement approval, and the insufficient planning and
                     preparation on the part of the Pennsylvania Emergency Management Agency.
                     Therefore, the Regional Task Forces had limited time to expend their
                     obligation authority within the grant performance period. As a result, for each
                     grant year from FYs 2002 through 2004, the Pennsylvania Emergency
                     Management Agency requested at least one extension of the grant period of
                     performance.

                     We determined that the administrative process was burdensome and time
                     consuming. This occurred because of the number and multiple levels of
                     personnel required for subgrant agreement approval, and insufficient planning
                     and preparation on the part of the Pennsylvania Emergency Management
                     Agency. The estimated allocation to the Commonwealth was usually known a
                     few months prior to the grant award. However, only after the award had been
                     granted and the Pennsylvania Emergency Management Agency had

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 12
_________________________________________________________________________________________________

                     determined each Regional Task Force’s allocation did the Pennsylvania
                     Emergency Management Agency instruct the Regional Task Forces to
                     develop a list of their equipment, training, and exercise needs. Using the
                     allocated amount as a cost base, each Regional Task Force formulated its
                     listing of equipment, training, and exercise needs. The listing was placed on
                     the agenda of the next monthly meetings of each Regional Task Force for
                     discussion and approval. After approval had been granted, each Regional
                     Task Force submitted its listing and signed subgrant agreement to the
                     Pennsylvania Emergency Management Agency. Generally, this list
                     development and approval process took from 30 to 90 days from the initial
                     grant award.

                     After receiving the signed agreement and listing, the Pennsylvania Emergency
                     Management Agency reviewed each listing. If the listing complied with the
                     program requirements and was within the allocated amount, the Pennsylvania
                     Emergency Management Agency’s Director of Administration approved the
                     subgrant agreement and forwarded the subgrant agreement with the listing to
                     the Comptroller’s Office for review and approval. Finally, after the
                     Comptroller’s Office’s approval, the documents were forwarded to the Office
                     of the General Counsel and the Office of the Attorney General for final
                     approval. We determined for FYs 2002 through 2004 that the average time
                     from grant award receipt to signed subgrant agreement was 261 days. This
                     process exceeded the program guideline requirements to allocate funds to the
                     subgrantees.

                     The Program Guidelines and Application for the FYs 2003 Part I, 2003
                     Part II, and 2004 require that each State shall obligate not less than 80 percent
                     of the total amount of the grant to local units of government within 45 days
                     for FY 2003, and 60 days for FY 2004, respectively, after the grant award.
                     The program guidelines for FY 2002 did not provide a timeline requirement.

                     The lengthy administrative process resulted in the Regional Task Forces
                     having limited time to expend their obligation authority within the original
                     grant performance period. For each grant year from FYs 2002 through 2004,
                     the Pennsylvania Emergency Management Agency requested one to three
                     extensions of the grant period of performance.

                          Number of Grant Extensions Requested per Fiscal Year
                          • 2002                  1 extension
                          • 2003 Part I           3 extensions
                          • 2003 Part II          3 extensions
                          • 2004                  2 extensions




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 13
_________________________________________________________________________________________________

                     Recommendation:

                     We recommend that the Assistant Administrator, Grant Programs Directorate
                     within the Federal Emergency Management Agency, advise the Director,
                     Pennsylvania Emergency Management Agency, to assess its administrative
                     approval process for subgrantee allocation and determine areas for
                     improvements. One such efficiency could be for the Pennsylvania Emergency
                     Management Agency to provide instructions prior to grant award, such that
                     the preliminary equipment listings and budgets are completed before the
                     grants are awarded, but after the allocation is known.

                     Management Comments:

                     We received verbal concurrences on the recommendation from the Grant
                     Programs Directorate officials and the Commonwealth of Pennsylvania
                     officials. Additionally, the Commonwealth of Pennsylvania has commented
                     that the Pennsylvania Emergency Management Agency is currently mapping
                     the entire DHS grant program, which will determine the grant flow process
                     and identify gaps. The Pennsylvania Emergency Management Agency will
                     develop a gap closure plan. It is anticipated that the mapping process will
                     reduce the time frames associated with the grant signature processes and
                     facilitate the timely expenditure of grant funds.

                     Auditor Analysis:

                     We believe that the Commonwealth of Pennsylvania has addressed the
                     recommendation adequately, except for the timeframe for completion of the
                     gap analysis. In the exit conference, the State officials verbally agreed to the
                     recommendation, but this area was not included specifically in writing in the
                     attached response (see appendix C).

                     The Grant Programs Directorate needs to provide corrective action for the
                     recommendation and a plan to implement the action within 90 days.

                     A System to Monitor and Measure Improved Preparedness and
                     Subrecipient Performance Was Not Implemented

                     The Pennsylvania Emergency Management Agency did not implement a
                     system to monitor and measure improved preparedness and subrecipient
                     performance. Therefore, the Pennsylvania Emergency Management Agency
                     did not monitor the programmatic and financial effectiveness of its Statewide
                     strategy. This condition occurred because the Pennsylvania Emergency
                     Management Agency’s organizational structure did not change as a result of
                     the new homeland security grant responsibilities, including the assignment of
                     monitoring responsibilities and the responsibility to measure improved

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 14
_________________________________________________________________________________________________

                     preparedness. Consequently, the Commonwealth did not measure improved
                     preparedness at an overall program or subrecipient level.

                     For the FYs 2002 through 2004 State Homeland Security Grant Programs, the
                     Pennsylvania Emergency Management Agency did not establish a written
                     plan to monitor, nor did they monitor, financial or programmatic performance
                     or effectiveness against its agency strategic goals. Currently, the
                     Pennsylvania Emergency Management Agency’s monitoring activities lack
                     the following:

                          • 	 individual(s) responsible for performing and coordinating monitoring
                              activities;
                          • 	 written guidance or procedures for performing monitoring activities;
                          • 	 written plan or schedule for monitoring;
                          • 	 documented quantifiable goals or criteria to determine the
                              effectiveness of purchases, training, and exercises implemented under
                              each grant; and
                          • 	 subrecipient monitoring of financial or programmatic performance or
                              effectiveness.

                     Although defined monitoring was not performed, the Pennsylvania
                     Emergency Management Agency submitted semiannual Categorical
                     Assistance Progress Reports to DHS. However, the Categorical Assistance
                     Progress Reports were not based on the goals and objectives of the
                     Commonwealth’s Domestic Preparedness Strategy and were not used as a tool
                     to gauge enhanced preparedness. In the FY 2005 single audit report, the
                     auditors reported the lack of site visits and monitoring of the Regional Task
                     Forces. As a result, in October 2006, the Pennsylvania Emergency
                     Management Agency began visiting the Regional Task Forces to monitor
                     activities.

                     According to the FY 1999 State Domestic Preparedness Equipment Program
                     Assessment and Strategy Development Tool Kit D - Evaluation Plan for the
                     Three-Year Domestic Preparedness Strategy, the evaluation of the statewide
                     strategy is the responsibility of the designated State Administrative Agency
                     for each state. The State Administrative Agency is responsible for
                     establishing a formal plan to evaluate the effectiveness of its statewide
                     strategy. In this plan, the State should describe the mechanisms and methods
                     it has or will establish to evaluate the impact of the statewide strategy,
                     including the programs and projects funded to implement the statewide
                     strategy. Also, according to the Tool Kit, at a minimum, the State should
                     report its progress in attaining the objectives established for each goal based
                     on the performance measure for each objective. For example, the attainment
                     of training objectives can be measured by the number of individuals and teams
                     who have successfully completed requested training by course and discipline.

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 15
_________________________________________________________________________________________________

                     The impact of exercises can be measured by results documented in the formal
                     After Action Report for each exercise. The amount of equipment ordered and
                     received, by type and discipline, is a measure of success for equipment
                     acquisition. Technical assistance can be measured by the effect achieved by
                     the particular use of this resource. Additionally, the Tool Kit provides that a
                     subjective appraisal of the progress toward preparedness for response can be
                     covered in a narrative.

                     According to the Code of Federal Regulations Title 28 § 66.40 Monitoring
                     and reporting program performance – grantees are responsible for managing
                     the day-to-day operations of grant and subgrant supported activities. Grantees
                     must monitor grant and subgrant supported activities to ensure compliance
                     with applicable federal requirements and that performance goals are being
                     achieved. Grantee monitoring must cover each program, function, or activity.

                     From FYs 2002 through 2004, the Pennsylvania Emergency Management
                     Agency received four State Homeland Security Grant Awards. According to
                     the Pennsylvania Emergency Management Agency officials, the
                     administration of these four awards became another emergency management
                     task for their employees. Over the years, the requirements of the grants have
                     grown. However, the Pennsylvania Emergency Management Agency’s
                     organizational structure has not changed as a result of the new responsibilities.
                     Consequently, the Pennsylvania Emergency Management Agency did not
                     monitor the grants at all levels or focus on implementing measures to assess
                     improved preparedness. The Commonwealth did not measure its
                     preparedness for improved effectiveness in several areas:

                          • 	 emergency responders’ capacity to respond with new equipment to
                              incidents that pose a threat to homeland security;
                          • 	 number of emergency responders who have increased skills needed to
                              respond to threats to homeland security and properly use the new
                              equipment; and
                          • 	 number of Regional Task Forces, counties, or emergency responders
                              that participated in exercises and trainings.

                     Recommendations:

                     We recommend that the Assistant Administrator, Grant Programs Directorate
                     within the Federal Emergency Management Agency:

                     1. 	 advise the Director, Pennsylvania Emergency Management Agency, to
                          evaluate its organizational structure and focus to determine if the current
                          structure is sufficient to meet its domestic preparedness responsibilities
                          and requirements.


              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 16
_________________________________________________________________________________________________

                     2. 	 require the Director, Pennsylvania Emergency Management Agency, to
                          comply with the administrative requirement to develop and implement a
                          system to monitor and measure improved preparedness of the
                          Commonwealth, including the Regional Task Forces and first responders.

                     Management Comments:

                     We received verbal concurrences on the recommendations from the Grant
                     Programs Directorate officials and the Commonwealth of Pennsylvania
                     officials. Additionally, the Commonwealth of Pennsylvania has commented
                     that the Pennsylvania Emergency Management Agency is currently mapping
                     the entire DHS grant program, which will determine the grant flow process
                     and identify gaps. The Pennsylvania Emergency Management Agency will
                     develop a gap closure plan. The final process map will include the
                     individual(s) responsible for performing and coordinating monitoring
                     activities, written guidance or procedures for performing monitoring activities,
                     written plan or schedule for monitoring, documented quantifiable goals or
                     criteria to determine the effectiveness of each grant specific to each grant
                     year, and subrecipient monitoring or financial or programmatic performance
                     or effectiveness.

                     Auditor Analysis:

                     We believe that the Commonwealth of Pennsylvania has addressed the
                     recommendations adequately, except for the timeframe for the completion of
                     the gap analysis. In the exit conference, the State officials verbally agreed to
                     the recommendations, but this area was not included specifically in writing in
                     the attached response.

                     The Grant Programs Directorate needs to provide corrective actions for each
                     recommendation and a plan to implement those actions within 90 days.

                     Supporting Documentation for Expenditures Charged to Federal Funds
                     Was Not Accessible

                     The Commonwealth initially was unable to provide documentation to support
                     our sample grant expenditures. According to the Pennsylvania Emergency
                     Management Agency officials, the primary reason for the lack of
                     documentation was the change in the method of filing the supporting
                     documentation for grant expenditures. The lack of adequate documentation
                     hampers the Pennsylvania Emergency Management Agency’s ability to
                     support the allowability of grant expenditures and the federal government
                     could require the Commonwealth to return the funds for the unsupported
                     expenditures.


              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 17
_________________________________________________________________________________________________

                     The Pennsylvania Emergency Management Agency used the grant funds to
                     pay for or reimburse the Regional Task Forces for counter-terrorism training,
                     planning, minor equipment, and exercises. In addition, the Pennsylvania
                     Emergency Management Agency purchased equipment for domestic
                     preparedness for the Regional Task Forces. Also, personnel and benefit costs
                     were paid for directly or reimbursed to the Regional Task Forces.

                     To evaluate the procedures in place to ensure the allowability, approval, and
                     propriety of documentation of grant expenses, we statistically selected and
                     tested a sample of expenditures for each grant year. During the performance
                     of our testing, the Commonwealth was initially unable to provide us with
                     supporting documentation for various expenditures charged to the grants for
                     FYs 2002 through 2004.

                     According to the Code of Federal Regulations Title 28 § 66.42 Retention and
                     access requirements for records, all financial records, supporting documents,
                     statistical records, and other records pertinent to an award must be retained for
                     a period of at least 3 years from the date of submission of the final
                     expenditure report or, for awards that are renewed quarterly or annually, from
                     the date of the submission of the last quarterly or annual financial report, as
                     required.

                     Eventually, the Commonwealth officials were able to substantiate the
                     expenditures. The supporting documentation for our sample took months to
                     obtain, because the Commonwealth’s retention policy was not followed
                     effectively, communication channels operated ineffectively, and the
                     Pennsylvania Emergency Management Agency changed the method of filing
                     the supporting documentation for grant expenditures. Prior to 2005, the
                     Pennsylvania Emergency Management Agency maintained all documentation
                     related to grant expenditures in the Pennsylvania Emergency Management
                     Agency’s Office. In 2005, the Pennsylvania Emergency Management Agency
                     began maintaining only the purchase and receiving documentation and the
                     Comptroller’s Office began maintaining only the vendor invoice. Thus, it
                     became more difficult to ensure that the supporting documentation was
                     complete and sufficient.

                     The lack of adequate documentation hampers the Pennsylvania Emergency
                     Management Agency’s ability to support the allowability of grant
                     expenditures. An ineffective retention policy and execution increase the risk
                     that improper expenditures and payments could occur without detection and
                     supporting documentation may be misplaced or lost.




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 18
_________________________________________________________________________________________________

                     Recommendations:

                     We recommend that the Assistant Administrator, Grant Programs Directorate
                     within the Federal Emergency Management Agency, advise the Director,
                     Pennsylvania Emergency Management Agency, to:

                     1. 	 collaborate with the Comptroller’s Office to institute a more effective
                          system to ensure that adequate documentation, supporting the allowability
                          of grant expenditures, is available when requested.

                     2. 	 collaborate with the Comptroller’s Office to perform periodic inspections
                          of the expenditure documentation, such as purchase orders, receiving
                          documents, and invoices, to ensure that the Commonwealth retention
                          policy is followed effectively.

                     Management Comments:

                     We received verbal concurrences on the recommendations from the Grant
                     Programs Directorate officials and the Commonwealth of Pennsylvania
                     officials. Additionally, the Commonwealth of Pennsylvania has commented
                     that it is exploring the possibility of using a new addition to the accounting
                     system that may allow a more automated purchasing process beginning at the
                     requisitioner level. This would facilitate a more efficient auditing process for
                     purchases.

                     Auditor Analysis:

                     We believe that the Commonwealth of Pennsylvania has addressed the
                     recommendations adequately, except for the timeframe for completion of the
                     system analysis. In the exit conference, the State officials verbally agreed to
                     the recommendations, but this area was not included specifically in writing in
                     the attached response.

                     The Grant Programs Directorate needs to provide corrective actions for each
                     recommendation and a plan to implement those actions within 90 days.

                     Unauthorized Expenditures Were Charged to Federal Funds

                     The Pennsylvania Emergency Management Agency acquired unallowable
                     equipment-related items totaling $721,317. The Pennsylvania Emergency
                     Management Agency did not review sufficiently those items acquired to
                     ensure compliance with the grant terms. This increased the risk that improper
                     expenditures were incurred that may require funds to be returned to the federal
                     government.


              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 19
_________________________________________________________________________________________________

                     We statistically selected a sample of expenditures for each grant year for
                     which we tested the nature, extent, allocability, allowability, and
                     reasonableness of the expenditures. As a result of our testing, we determined
                     that the cost for various warranties, maintenance agreements, spare parts, and
                     other unauthorized expenses charged to the grants for FYs 2002, 2003 Part I,
                     and 2004 were not included on the authorized equipment listing, included in
                     the sustainment sub-category, or associated with equipment acquired under
                     the Homeland Defense Equipment Reuse Program. We therefore question
                     $721,317 in expenditures as shown in Table 2.
                                                              Table 2
                                                          Unauthorized Expenditures
                                                                           Other
                         Grant                Maintenance  Spare Parts   Expenses                 Totals

                         FY 2002                    $25,000             $7,999     $3,000        $35,999

                         FY 2003 Part I             219,396               450      18,350        238,196

                         FY 2004                    407,042                  -     40,080        447,122

                         Totals                    $651,438             $8,449    $61,430       $721,317

                     The DHS Program Guidelines and Application for the FY 2002 - Authorized
                     Equipment Purchase List contains a complete listing of allowable equipment
                     items. The listing does not include maintenance agreements or spare parts.

                     Allocated equipment acquisition funds for the State Domestic Preparedness
                     Program FY 2003 Part I may be used for sustainment of first responder
                     equipment that would be used in a jurisdiction’s response to a terrorist threat
                     or event. This would include repair and replacement parts, equipment
                     warranties, and maintenance agreements for equipment purchased under any
                     DHS state equipment grant. Applicants that choose to use funds for this
                     purpose should include a sustainment sub-category for each equipment
                     category on the Equipment Budget Detail Worksheet as required by the DHS
                     Program Guidelines and Application for the FY 2003 Part I.

                     The DHS Program Guidelines and Application for FY 2004 state that funding
                     may be used in any of five categories: (1) planning; (2) equipment
                     acquisitions; (3) training; (4) exercise; and (5) management and
                     administrative. As established in the State Domestic Preparedness Program
                     for FY 2004, under Other Authorized Equipment and Related Costs,
                     maintenance contracts were allowable for authorized equipment purchased
                     through DHS grants and acquired through the DHS’ Homeland Defense
                     Equipment Reuse Program.



              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 20
_________________________________________________________________________________________________

                     The Commonwealth had $721,317 in unauthorized expenditures because the
                     purchases were not on the approved listing and the Pennsylvania Emergency
                     Management Agency did not receive approval for those expenditures from its
                     assigned Preparedness Officer. Although the list provided in the State
                     Domestic Preparedness Program Guidelines and Application is intended as a
                     guide, if grantees have any questions about eligibility of equipment not
                     specifically addressed, they can contact DHS for clarification. The
                     Pennsylvania Emergency Management Agency did not contact its assigned
                     DHS Preparedness Officer or other DHS officials to verify the allowability of
                     those expenditures.

                     The lack of procedures to review the acquisition of maintenance agreements,
                     spare parts, and other expenses as well as the lack of required communication
                     with the assigned Preparedness Officer resulted in unauthorized expenditures.

                     Recommendations:

                     We recommend that the Assistant Administrator, Grant Programs Directorate
                     within the Federal Emergency Management Agency:

                     1. 	 require the Director, Pennsylvania Emergency Management Agency, to
                          return to DHS the unauthorized amount totaling $721,317.

                     2. 	 advise the Director, Pennsylvania Emergency Management Agency, to
                          institute a system to ensure that all equipment acquisitions are included in
                          the provided guidelines, and that in case of ambiguity, uncertainty, or
                          doubt, a consultation with its Preparedness Officer must be requested and
                          documented.

                     3 	 advise the Director, Pennsylvania Emergency Management Agency, to
                         work with the Comptroller’s Office to ensure that the Comptroller’s Office
                         verifies the invoice description and compares it with the authorized lists
                         included in the State Domestic Preparedness Program Guidelines and
                         Application to ensure that payments are made only for allowable
                         expenses.

                     Management Comments:

                     We received verbal concurrences on the recommendations from the Grant
                     Programs Directorate officials and the Commonwealth of Pennsylvania
                     officials. Additionally, the Commonwealth of Pennsylvania has commented
                     that the Pennsylvania Emergency Management Agency is currently mapping
                     the entire DHS grant program, which will determine the grant flow process
                     and identify gaps. The Pennsylvania Emergency Management Agency will
                     develop a gap closure plan. The Pennsylvania Emergency Management

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 21
_________________________________________________________________________________________________

                     Agency fully expects that the conditions listed in this finding will be identified
                     as a gap and the process will be modified to correct this condition.

                     Auditor Analysis:

                     We believe that the Commonwealth of Pennsylvania has addressed the
                     recommendations adequately, except for the return to DHS of the
                     unauthorized amounts expended. In the exit conference, the State officials
                     verbally agreed to the recommendations given additional research, but this
                     area is not included specifically in writing in the attached response.

                     The Grant Programs Directorate needs to provide corrective actions for each
                     recommendation and a plan to implement those actions within 90 days.

                     Categorical Assistance Progress Reports Were Not Submitted or Not
                     Submitted Timely

                     The Pennsylvania Emergency Management Agency did not submit 1 and was
                     not timely in the submission of an additional 16 of 25 semiannual Categorical
                     Assistance Progress Reports. This occurred because the grant manager did
                     not effectively manage the submission of the data necessary to complete the
                     Categorical Assistance Progress Reports. As a result, the grant will not be
                     closed if the grantee has not submitted the Categorical Assistance Progress
                     Reports for each required period for the life of the grant.

                     The Pennsylvania Emergency Management Agency is responsible for the
                     submission of the semiannual Categorical Assistance Progress Reports that
                     are designed to provide DHS officials with information that they can use to
                     monitor the implementation of the Homeland Security Grant Programs. DHS
                     used the Categorical Assistance Progress Reports to learn about and stay
                     abreast of the progress and results of the grant.

                     For each grant program and the periods of performance listed below, either
                     the Pennsylvania Emergency Management Agency did not submit the
                     Categorical Assistance Progress Report or did not submit the Categorical
                     Assistance Progress Report within the required 30 days after the end of the
                     reporting period. From the inception of the FY 2002 grant program, a total of
                     25 Categorical Assistance Progress Reports should have been submitted. Of
                     the 25 Categorical Assistance Progress Reports to be submitted, 1 was not
                     submitted and 16 were submitted late, with a time span ranging from 4 to 873
                     days late.

                     Table 3 presents the Categorical Assistance Progress Reports that were not
                     submitted or were submitted late.


              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 22
_________________________________________________________________________________________________

                                                                 Table 3

                                                       Categorical Assistance Progress Report Submissions
                                                                                                            Days
                          Grant                    Reporting Period         Due Date       Date Submitted   Late
                                            7/1/2003    to     12/31/2003    1/30/2004      6/22/2006          873
                     1    FY 2002           7/1/2004    to     12/31/2004    1/30/2005       6/22/2006        507
                                            1/1/2005    to       4/1/2005    8/28/2005       6/22/2006        298
                                            1/1/2003    to      6/30/2003    7/30/2003    Not Submitted
                                            7/1/2003    to     12/31/2003    1/30/2004       2/9/2004          10
                     2    FY 2003 Part I    1/1/2005    to      6/30/2005    7/30/2005       3/27/2006        240
                                            7/1/2005    to     12/31/2005    1/30/2006       3/27/2006         56
                                            1/1/2006    to      6/30/2006    7/30/2006       9/25/2006         57
                                            1/1/2003    to      6/30/2003    7/30/2003       2/4/2004         188
                                            7/1/2003    to     12/31/2003    1/30/2004       2/4/2004           4
                     3    FY 2003 Part II   1/1/2005    to      6/30/2005    7/30/2005       3/26/2006        239
                                            7/1/2005    to     12/31/2005    1/30/2006       3/27/2006         56
                                            1/1/2006    to      6/30/2006    7/30/2006       9/25/2006         57
                                            7/1/2004    to     12/31/2004    1/30/2005       4/24/2006        449
                                            1/1/2005    to      6/30/2005    7/30/2005       4/24/2006        268
                     4    FY 2004
                                            7/1/2005    to     12/31/2005    1/30/2006       4/24/2006         84
                                            1/1/2006    to      6/30/2006    7/30/2006       9/25/2006         57


                     According to the Code of Federal Regulations Title 28 § 66.40 Monitoring
                     and reporting program performance – Grantees shall submit annual
                     performance reports unless the awarding agency requires quarterly or semi
                     annual reports. Quarterly or semi-annual reports shall be due 30 days after the
                     reporting period. The final performance report will be due 90 days after the
                     expiration or termination of grant support.

                     According to the grant adjustment notices awarding the State Homeland
                     Security Grant Program for FYs 2002, 2003 Part I, 2003 Part II, and 2004, the
                     Special Conditions require that the recipient agree to comply with the
                     financial and administrative requirements set forth in the current edition of the
                     Financial Guides.

                     The FY 2002 and FY 2005 Financial Guides Part III: Chapter 11 Reporting
                     Requirements – require that a Categorical Assistance Progress Report be
                     prepared twice a year and used to describe the performance of activities or the
                     accomplishment of objectives as set forth in the approved award application.
                     Progress reports must be submitted within 30 days after the end of the
                     reporting periods, which are June 30 and December 31, for the life of the
                     award. The awarding agency may opt, by special condition to the award, to
                     combine the first report into the subsequent reporting period. For example, if


              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 23
_________________________________________________________________________________________________

                     the start date on the award is June 1, the awarding agency may opt to receive
                     the first report 30 days after the December 31 reporting period.

                     The Pennsylvania Emergency Management Agency did not have sufficient
                     internal controls or management oversight to ensure the timely submission of
                     the Categorical Assistance Progress Reports. The grant manager did not
                     effectively manage the receipt of the data from the Regional Task Forces
                     necessary to compile and submit the Categorical Assistance Progress Reports
                     timely.

                     Not filing a Categorical Assistance Progress Report is a violation of the grant
                     agreement. Grantees are still required to submit the Categorical Assistance
                     Progress Reports for grants awarded prior to FY 2004. In FY 2004, the DHS
                     started using the Categorical Assistance Progress Report in conjunction with
                     the Bi-annual Strategy Implementation Report to monitor grant program
                     progress and implemented the Grants Reporting tool for program years 2004
                     and later. This monitoring tool requires grantees to submit the Initial
                     Spending Implementation Plan and the Bi-annual Strategy Implementation
                     Report to monitor program process. The untimely submission of the
                     Categorical Assistance Progress Report does not prevent the drawdown of
                     federal funds. However, the grant cannot be closed if the grantee has not
                     submitted a Categorical Assistance Progress Report for each required period
                     for the life of the grant.

                     Recommendations:

                     We recommend that the Assistant Administrator, Grant Programs Directorate
                     within the Federal Emergency Management Agency:

                     1. 	 advise the Director, Pennsylvania Emergency Management Agency, to
                          develop policies and procedures that ensure the proper and timely
                          submission of the Categorical Assistance Progress Reports.

                     2. 	 require the Director, Pennsylvania Emergency Management Agency, to
                          submit the one Categorical Assistance Progress Report that was not filed.

                     Management Comments:

                     We received verbal concurrences on the recommendations from the Grant
                     Programs Directorate officials and the Commonwealth of Pennsylvania
                     officials. Additionally, the Commonwealth of Pennsylvania has commented
                     that the Pennsylvania Emergency Management Agency is currently mapping
                     the entire DHS grant program, which will determine the grant flow process
                     and identify gaps. The Pennsylvania Emergency Management Agency will
                     develop a gap closure plan. The final process map will include a list of

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 24
_________________________________________________________________________________________________

                     reports due, who is responsible, and the task force responsibility in this
                     reporting.

                     Auditor Analysis:

                     We believe that the Commonwealth of Pennsylvania has addressed the
                     recommendations adequately, except for the specific timeframe for
                     completion of the gap analysis and a determination that they would submit the
                     report identified. In the exit conference, the Commonwealth officials verbally
                     agreed to the recommendations, but these areas are not included specifically in
                     writing in the attached response.

                     The Grant Programs Directorate needs to provide corrective actions for each
                     recommendation and a plan to implement those actions within 90 days.

                     Final Financial Status Report for FY 2002 Was Not Submitted Timely

                     The Pennsylvania Emergency Management Agency did not submit the final
                     Financial Status Report as required within 120 days after the closing period of
                     the FY 2002 grant. The grant manager did not effectively manage the
                     submission of the invoices necessary to complete the final Financial Status
                     Report. Also, the Commonwealth wanted to ensure that all invoices had been
                     received prior to submitting the report. The late submission of the final
                     Financial Status Report by the Pennsylvania Emergency Management Agency
                     hampered the ability of the DHS to monitor the closing of the grant.

                     The Pennsylvania Emergency Management Agency did not submit the final
                     Financial Status Report within 120 days after the closing period of the
                     FY 2002 grant. The Commonwealth’s final report indicated that it had spent
                     $9,847,517 of $10,512,000 granted in the FY 2002 program. The unobligated
                     amount of $664,483 was never drawn down by the Commonwealth of
                     Pennsylvania, and not disbursed by DHS. The grant award would be reduced
                     by $664,483.

                     According to Code of Federal Regulations Title 28 § 66.41(b) Financial
                     Status Report, grantees will use Standard Form 269 or 269A, Financial Status
                     Report, to report the status of funds for all non-construction grants and for
                     construction grants when required in accordance with § 66.41(e)(2)(iii). Each
                     grantee will report program outlays and program income on a cash or accrual
                     basis as prescribed by the awarding agency. The federal agency may
                     prescribe the frequency of the report for each project or program. However,
                     the report will not be required more frequently than quarterly.

                     The grantee is required to submit a Financial Status Report on a quarterly
                     basis 45 days after March 31, June 30, September 30, and December 31 for

              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 25
_________________________________________________________________________________________________

                     the life of the grant as required in the Office of Domestic Preparedness
                     FY 2002 Grant Program, FY 2003 Grant Program Part I, and FY 2003 Grant
                     Program Part II Program Guidelines and Application, and Instructions for
                     Financial Status Reporting (SF 269) May 2005. The final financial report is
                     due 120 days after the end date of the award period.

                     For the FY 2002 Grant, the Pennsylvania Emergency Management Agency
                     did not enforce timely submission of invoices to the Comptroller’s Office by
                     the Regional Task Forces and commodities personnel. Therefore, the
                     Comptroller’s Office did not submit the Financial Status Reports until it
                     determined all the expenses for the period had been received.

                     DHS ability to effectively and efficiently monitor the FY 2002 closing
                     procedures of the State Homeland Security Grant Program expenditures, for
                     the Commonwealth of Pennsylvania, was hampered by the untimely
                     submission of the final Financial Status Report.


                     Recommendation:

                     We recommend that the Assistant Administrator, Grant Programs Directorate
                     within the Federal Emergency Management Agency, advise the Director,
                     Pennsylvania Emergency Management Agency, in conjunction with the
                     Comptroller’s Office, to revise its policies and procedures to ensure the timely
                     submission of future Financial Status Reports.

                     Management Comments:

                     We received verbal concurrences on the recommendation from the Grant
                     Programs Directorate officials and the Commonwealth of Pennsylvania
                     officials. Additionally, the Commonwealth of Pennsylvania has commented
                     that it held the final report awaiting a final invoice from Allegheny County.
                     All Financial Status Reports are now due in 30 days and are being filed
                     timely.

                     Auditor Analysis:

                     We believe that the Commonwealth of Pennsylvania has addressed the
                     recommendation adequately.

                     The Grant Programs Directorate needs to provide corrective actions for the
                     recommendation and a plan to implement those actions within 90 days.




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 26
_________________________________________________________________________________________________

                     Information Reported on the Financial Status Reports Did Not Agree
                     with the Commonwealth’s Accounting System

                     The unliquidated obligations data reported on the Financial Status Reports did
                     not agree with the Commonwealth’s accounting system. According to the
                     Comptroller’s Office, the Grant Status Report from the accounting system
                     does not take into account any advances of funds given to Regional Task
                     Forces nor purchase orders or invoices received within the last 5 days of the
                     month. Those items, along with clerical errors and postings, or liquidations to
                     erroneous accounts, could cause the grant accounts to be overstated in the
                     Commonwealth’s accounting system.

                     To acquire the information to report on the Financial Status Report, the
                     Comptroller’s Office used the Grant Status Report from its accounting system.
                     It is the Comptroller’s Office’s practice to enter on the Financial Status Report
                     the actual expenditure total from the accounting system and to adjust the
                     unliquidated obligations total entered to ensure that the cumulative
                     expenditures combined with total unliquidated obligations equals the total
                     federal funds authorized for the funding period per the grant.

                     To verify the information provided on the Financial Status Reports, we
                     selected eight Financial Status Reports to test for accuracy and agreement
                     with the accounting system. From our sample, six Financial Status Reports
                     contained financial data that did not agree with the accounting system, and the
                     reasons for the adjustments were not annotated in the supporting
                     documentation.

                     See Table 4 for the unliquidated obligations data reported on the Financial
                     Status Reports that did not agree with the Commonwealth’s accounting
                     system.

                                                             Table 4
                                  Comparing the Financial Status Reports to the Accounting System
                                                                               Financial      Accounting
                                                                             Status Report      System
                                                                                 Total           Total
                                                                             Expenditures    Expenditures
                                                                                  and             and
                                                                             Unliquidated    Unliquidated
                       No       Grant               Reporting Period          obligations     obligations    Difference
                       1    FY 2003 Part I    1/1/2004    to     3/31/2004   $ 18,570,000    $ 18,071,292   $    498,708
                       2    FY 2003 Part II   7/1/2004    to     9/30/2004   $ 49,189,000    $ 51,939,091   $ (2,750,091)
                       3    FY 2003 Part II   4/1/2005    to     6/30/2005   $ 49,189,000    $ 51,580,823   $ (2,391,823)
                       4    FY 2004           10/1/2005   to    12/31/2005   $ 72,370,500    $ 73,963,887   $ (1,593,387)
                       5    FY 2004           1/1/2006    to     3/31/2006   $ 72,370,500    $ 74,971,027   $ (2,600,527)
                       6    FY 2004           4/1/2006    to     6/30/2006   $ 72,370,500    $ 75,166,610   $ (2,796,110)




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 27
_________________________________________________________________________________________________

                     The 2002 Financial Management Guide Part II Chapter 3: Standards
                     for Financial Management Systems requires that all recipients establish and
                     maintain accounting systems and financial records to accurately account for
                     funds awarded to them. The recipient is responsible for establishing and
                     maintaining an adequate system of accounting and internal controls for itself,
                     and for ensuring that an adequate system exists for each of its subrecipients.

                     Additionally, the 2002 Financial Management Guide Part III Chapter 11:
                     Reporting Requirements also requires grantees to maintain adequate
                     documentation to provide an audit trail that substantiates the amounts reported
                     on each Financial Status Report as submitted.

                     The Financial Status Report is designed to provide DHS with financial
                     information about the activities (expenditures and unliquidated obligations)
                     of the grant program as incurred for the reporting period.

                     According to the Comptroller’s Office, any advance of funds given to
                     Regional Task Forces or purchase orders or invoices received within the last
                     5 days of the month along with clerical errors and postings or liquidations to
                     erroneous accounts could cause the grant account’s obligations to be
                     overstated in the Commonwealth’s accounting system. Because of these
                     conditions, the Comptroller’s Office unilaterally adjusts the financial status
                     report without investigating and documenting the differences noted. Also,
                     no supervisory review is performed prior to the Financial Status Reports
                     submissions. The unliquidated obligation data reported on the Financial
                     Status Reports are not substantiated by the Commonwealth’s accounting
                     system records. Therefore, the potential exists for the Commonwealth to
                     obligate and expend funds that it does not have.

                     Recommendations:

                     We recommend that the Assistant Administrator, Grant Programs Directorate
                     within the Federal Emergency Management Agency, advise the Director,
                     Pennsylvania Emergency Management Agency, in collaboration with the
                     Comptroller’s Office to:

                     1. 	 perform an investigative review of the financial data from the accounting
                          system to determine the reconciling items that would cause a variance in
                          the identified Financial Status Reports. The items should be explained and
                          documented in the accounting records.

                     2. 	 implement procedures to ensure that a sufficient audit trail is maintained
                          and that appropriate reviews are performed prior to submission of future
                          Financial Status Reports.


              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 28
_________________________________________________________________________________________________

                     Management Comments:

                     We received verbal concurrences on the recommendations from the Grant
                     Programs Directorate officials and the Commonwealth of Pennsylvania
                     officials. Additionally, the Commonwealth of Pennsylvania has commented
                     that it has identified the cause and has implemented various procedures and
                     reconciliations to ensure that the obligations are properly liquidated. The
                     evaluation of the obligations was scheduled to be completed prior to July 30,
                     2007, and all variances will be documented for future questions.

                     Auditor Analysis:

                     We believe that the Commonwealth of Pennsylvania has addressed the
                     recommendations adequately.

                     The Grant Programs Directorate needs to provide corrective actions for each
                     recommendation and a plan to implement those actions within 90 days.




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 29
Appendix A
Objectives, Scope, and Methodology



                        The objectives of the audit were to determine whether the Commonwealth of
                        Pennsylvania effectively and efficiently implemented the first responder grant
                        programs, achieved the goals of the programs, and spent the funds awarded
                        according to grant requirements. The goal of the audit was to identify
                        problems and solutions that would help the Commonwealth of Pennsylvania
                        prepare for and respond to terrorist attacks.

                        The audit further enabled us to answer the following researchable questions:

                        • 	 Did the Commonwealth use reasonable methodologies for assessing
                            threat, vulnerability, capability, and prioritized needs?

                        • 	 Did the Commonwealth appropriately allocate funding based on threats,
                            vulnerabilities, capabilities, and priorities?

                        • 	 Has the Commonwealth developed and implemented plans to measure
                            improvements in preparedness as a result of the grants and have such
                            measurement efforts been effective?

                        • 	 Are the Commonwealth’s procurement methodologies (centralized, local,
                            or combination) reasonable and in conformance with its homeland security
                            strategies?

                        • 	 Does the State Administrative Agency have procedures in place to monitor
                            the funds and activities at the local level to ensure that grant funds are
                            spent according to grant requirements and the Commonwealth-established
                            priorities? Have these monitoring procedures been implemented and are
                            they effective?

                        • 	 Did the Commonwealth comply with cash management requirements and
                            the DHS financial and status reporting requirements for the grant
                            programs and did local jurisdictions spend grant funds advanced by the
                            Commonwealth in a timely manner and, if not, what caused the delays?

                        • 	 Were grant funds used according to grant requirements and
                            Commonwealth-established priorities?

                        • 	 Is the time it takes the Commonwealth to get funds/equipment to first
                            responders (from the time the funds/equipment were available to the State
                            until they were disbursed/provided to the jurisdiction) reasonable (auditor
                            judgment), and if not, what caused the delays?




                The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                               Awarded During Fiscal Years 2002 through 2004
                                                      Page 30
Appendix A

Objectives, Scope, and Methodology (continued) 


                         • 	 Are there best practices that can be identified and shared with other States
                             and the DHS?

                         The scope of the audit included the following grant programs. These
                         programs are described in the Background section of this report.

                         • 	 FY 2002 State Domestic Preparedness Program

                         • 	 FY 2003 State Homeland Security Grant Program Part I

                         • 	 FY 2003 State Homeland Security Grant Program Part II

                         • 	 FY 2004 State Homeland Security Grant Program

                         The audit methodology included work at Department of Homeland Security
                         Headquarters, the Commonwealth of Pennsylvania’s offices responsible for
                         the management of the grants, and various subgrantee locations. In order to
                         achieve our audit objective we analyzed data, reviewed documentation, and
                         interviewed the key state and local officials directly involved in the
                         management and administration of the Commonwealth of Pennsylvania’s
                         Homeland Security Grant Programs. We conducted site visits and held
                         discussions with appropriate officials from five of the nine Regional Task
                         Forces and four first responders in order to determine if program grant funds
                         were expended according to grant requirements and Commonwealth-
                         established priorities. The following five Regional Task Forces were visited.

                         •	   South Central
                         •	   South East
                         •	   South West
                         •	   North East
                         •	   East Central

                         We also conducted site visits at the following four first responders:

                         •	   Bomb Squad - (Pittsburgh)
                         •	   Police Special Weapons And Tactical Team (Allegheny County)
                         •	   Stroud Area Regional Police
                         •	   Emergency Medical Services Hazardous Material (Dauphin County)

                         At each location visited, we interviewed responsible officials, reviewed
                         documentation supporting the Commonwealth and subgrantees management
                         of the awarded grant funds, and physically inspected some of the equipment
                         procured with the grant funds.


                 The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                                Awarded During Fiscal Years 2002 through 2004
                                                       Page 31
Appendix A

Objectives, Scope, and Methodology (continued) 


                         We reviewed prior audit reports and coordinated our work with the
                         Pennsylvania Emergency Management Agency. We conducted the audit
                         between September and December 2006 and performed the work in
                         accordance with the Government Auditing Standards prescribed by the
                         Comptroller General of the United States.

                         This was primarily a performance rather than a compliance audit performed
                         by a Department of Homeland Security, Office of Inspector General
                         contractor. We were not engaged to and did not perform a financial statement
                         audit, the objective of which would be to express an opinion on specified
                         elements, accounts, or items. Accordingly, we were neither required to nor
                         expressed an opinion on the costs claimed for the grant programs included in
                         the scope of the audit. Had we been required and performed additional
                         procedures or conducted an audit of the financial statements in accordance
                         with generally accepted auditing standards, other matters might have come to
                         our attention that would have been reported. This report relates only to the
                         programs specified and does not extend to any financial statements of the
                         Commonwealth of Pennsylvania.

                         While the audit work was performed and the report was prepared under
                         contract, the audit results are being reported by the Department of Homeland
                         Security, Office of Inspector General, to appropriate DHS Grant Programs
                         Directorate officials and Commonwealth of Pennsylvania officials.




                 The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                                Awarded During Fiscal Years 2002 through 2004
                                                       Page 32
Appendix B
The Pennsylvania Emergency Management Agency Organization Chart

                                                   Organization Chart 

                                                    October 6, 2004 


                                                      Pennsylvania 

                                                       Emergency

                                                   Management Council




                                                      Pennsylvania 

                                                       Emergency

                                                   Management Agency

                                                        (PEMA)




                                                   Executive Office



           Counsel         Executive           Press                      Field Operations
                           Assistant           Office                     Eastern Region-Hamburg
                                                                          Central Region-Harrisburg
                                                                          Western Region-Indiana




          Bureau of            Bureau of           Bureau of          Bureau of                  Bureau of
          Administration       Operation           Recovery and       Plans                      Technical
                               and Training        Mitigation                                    Services


          -Grant               -Operations         -Public            -Technological       -Communications
          Management           -Training           Assistant          Planning             -911
          -Human               -Radiological       -Individual        -Natural Hazard      -Information
          Resources            Defense             Assistant          Planning             Technology
          -Fiscal                                  -Hazard
          -Facilities                              Mitigation
          Management




       Note: The Comptroller’s Office is a separate agency of the Commonwealth and is not
       under the purview of the Pennsylvania Emergency Management Council.




              The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                             Awarded During Fiscal Years 2002 through 2004
                                                    Page 33
Appendix C
The Pennsylvania Emergency Management Agency Response




               The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants 

                              Awarded During Fiscal Years 2002 through 2004 

                                                     Page 34 

Appendix C
The Pennsylvania Emergency Management Agency Response




               The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants 

                              Awarded During Fiscal Years 2002 through 2004 

                                                     Page 35 

Appendix C
The Pennsylvania Emergency Management Agency Response




               The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants 

                              Awarded During Fiscal Years 2002 through 2004 

                                                     Page 36 

Appendix C
The Pennsylvania Emergency Management Agency Response




               The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants 

                              Awarded During Fiscal Years 2002 through 2004 

                                                     Page 37 

Appendix C
The Pennsylvania Emergency Management Agency Response




               The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants 

                              Awarded During Fiscal Years 2002 through 2004 

                                                     Page 38 

Appendix D
Report Distribution




                         Department of Homeland Security

                              Secretary 

                              Deputy Secretary 

                              Chief of Staff 

                              Deputy Chief of Staff 

                              General Counsel 

                              Executive Secretary 

                              Assistant Secretary, Public Affairs 

                              Assistant Secretary, Policy 

                              Assistant Secretary, Legislative Affairs 

                              DHS OIG Liaison 

                              Chief Privacy Officer 



                         Grant Programs Directorate within the
                           Federal Emergency Management Agency

                              Assistant Administrator, Grant Programs Directorate 

                              Deputy Administrator, National Preparedness Directorate 

                              Federal Emergency Management Agency Audit Liaison 

                              Grant Programs Directorate Audit Liaison 

                              National Preparedness Directorate Audit Liaison 


                         Office of Management and Budget

                            Chief, Homeland Security Branch 

                            DHS Program Examiner 



                         Congress

                            Congressional Oversight and Appropriations Committee, as appropriate




                  The Commonwealth of Pennsylvania’s Management of State Homeland Security Grants
                                 Awarded During Fiscal Years 2002 through 2004
                                                        Page 39
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
